BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Anthony
Sevy v. Court Officer Philip Barach, was sent via Two
Day Service to the U.S. Supreme Court, and via Two
Day and e-mail service to the following parties listed
below, this 30th day of October, 2020:
Jonathan R. Marko
Counsel of Record
Marko Law, PLLC
1300 Broadway Street, Fifth Floor
Detroit, MI 48226
(313) 777-7529
jon@markolaw.com
Counsel for Petitioner
Kali May Lester Henderson
T. Joseph Seward
Seward Henderson
210 E. Third Street
Suite 212
Royal Oak, MI 48067
(248) 773-3580
khenderson@sewardhenderson.com
jseward@sewardhenderson.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 30, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~Ju 3a , dDoO

cYl,v rJ . ~

Notary Public
[seal]

